No. 19-43
In the

Supreme Court of the United States
__________________
POWER ANALYTICS CORPORATION,
Petitioner,
v.
OPERATION TECHNOLOGY INC.,
SCHNEIDER ELECTRIC USA, INC.,
Respondents.
__________________
On Petition for Writ of Certiorari to the United
States Court of Appeals for the Federal Circuit

__________________
REPLY BRIEF FOR PETITIONER
__________________
Robert F. Ruyak
Counsel of Record
Amadou K. Diaw
Jeffrey Frey
RuyakCherian LLP
1700 K Street NW
Suite 810
Washington, DC 20006
(202) 838-1560
robertr@ruyakcherian.com

Korula T. Cherian
1936 University Avenue
Suite 350
Berkeley, CA 94704
(510) 944-0190

Counsel for Petitioner
Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
TABLE OF CONTENTS
TABLE OF AUTHORITIES . . . . . . . . . . . . . . . . . . . ii
INTRODUCTION. . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
A. The District Court Reached an Incorrect
Conclusion by Finding this Case Similar to
Parker v. Flook. . . . . . . . . . . . . . . . . . . . . . . . . 2
B. The Question of Whether the Components of
Petitioner’s Claim are “Conventional and
Generic” is One of Fact Under Berkheimer, so
Disposition of this Case Depends on How this
Court Decides Berkheimer. . . . . . . . . . . . . . . . 8
C. Petitioner Waived No Questions of Material
Fact before the District Court. . . . . . . . . . . . . 9
D. The Federal Circuit’s Routine Rule 36
Affirmance of Cases That Involve Patent
Eligibility Questions Has Widened the Void
in This Area of the Law and Invites Injustice
as Exemplified in this Case. . . . . . . . . . . . . . 11
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13

ii
TABLE OF AUTHORITIES
CASES
Alice Corp. Pty. Ltd. v. CLS Bank Int’l,
573 U.S. 208 (2014). . . . . . . . . . . . . . . . . 3, 6, 9, 10
American Axle & Manufacturing v. Neapco
Holdings,
No. 2018-1763, 2019 U.S. App. LEXIS 29655
(Fed. Cir. Oct. 3, 2019) . . . . . . . . . . . . . . . . . . 1, 11
Berkheimer v. HP Inc.,
881 F.3d 1360 (Fed. Cir. 2018) . . . . . . . 8, 9, 12, 13
Diamond v. Diehr,
450 U.S. 175 (1981). . . . . . . . . . . . . . . . . . . . . . 1, 2
Mayo Collaborative Servs. v. Prometheus Labs.,
Inc.,
566 U.S. 66 (2012). . . . . . . . . . . . . . . . . . . . . . . 3, 8
Microsoft Corp. v. i4i Ltd. P’ship,
564 U.S. 91 (2011). . . . . . . . . . . . . . . . . . . . . . . . . 8
Mortg. Grader, Inc. v. First Choice Loan Servs. Inc.,
811 F.3d 1314 (Fed. Cir. 2016) . . . . . . . . . . . . . . . 8
Parker v. Flook,
437 U.S. 584 (1978). . . . . . . . . . . . . . . . . . . passim
Power Analytics Corp. v. Operation Technology, Inc.
et al.,
8:16-cv-01955-JAK-FFM (C.D. Cal. Feb. 28,
2017) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9

iii
Power Analytics Corp. v. Operation Technology, Inc.
et al.,
8:16-cv-01955-JAK-FFM (C.D. Cal. Mar. 21,
2017) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
Power Analytics Corp. v. Operation Technology, Inc.
et al.,
8:16-cv-01955-JAK-FFM (C.D. Cal. Aug. 10,
2017) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
STATUTES
35 U.S.C. § 101 . . . . . . . . . . . . . . . . . . . . . . . . . passim

1
INTRODUCTION
Petitioner disagrees with Respondents’ restatement
of the question presented, because it misrepresents the
decision below as a “holding that Petitioner’s patent
claims are invalid under Parker v. Flook, 437 U.S. 584
(1978).” Without a written opinion, we simply don’t
know why the appeals court affirmed the district
court’s decision. And, given the many issues in this
case, the district court’s superficial use of Flook to
justify its decision, along with ignorance of the Federal
Circuit’s reasoning, cannot lead to a definitive
statement such as “invalid under Parker v. Flook.”
Given the Federal Circuit’s failure to settle § 101 law,
accompanied by intense disagreement about the
meaning of Flook itself,1 saying that a case is “invalid
under Flook” is not accurate and provides little
guidance to the Court in this case.
Petitioner did not waive – as Respondents
incorrectly assert – its fact-based arguments that the
claimed invention was “inventive” and differentiable
from the invention in Flook. However, the waiver issue
provides another argument for granting certiorari in
this case in order to rein in the Federal Circuit’s overuse of Rule 36: with a Rule 36 affirmance, no one
knows whether the appeals court agreed with the
district court's substantive views and application of
§ 101, or with the waiver arguments. Respondents rely

1

See. e.g., American Axle & Manufacturing v. Neapco Holdings,
No. 2018-1763, 2019 U.S. App. LEXIS 29655, at *18-19 (Fed. Cir.
Oct. 3, 2019), indirectly pointing out the difficulty of reconciling
Flook with Diamond v. Diehr, 450 U.S. 175, 191 (1981).

2
on both arguments, but the prospect of multiple
potential (but unknowable) bases for the judgment
provides more reason to grant certiorari than to deny
it.
Finally, Petitioner does agree with part of
Respondents’ restatement of the question presented, as
“[w]hether the Federal Circuit correctly issued an
unpublished summary affirmance of a district court
order...,” because this part of the restatement brings
the Court’s attention to the Federal Circuit’s overuse of
Rule 36 in the § 101 context which increases the
uncertainty in what has become the most uncertain
area of the patent laws. This practice is a misuse of
Rule 36 and an impediment to the efficient and fair
administration of the judicial process. The summary
Rule 36 affirmances make no contribution to settling
the turbulent area of patent eligibility law.
The frequent use of Rule 36 affirmances in appeals
regarding § 101 has only led to a dramatic increase in
amount of litigation concerning this issue and more
appeals to the Federal Circuit and this Court seeking
clarification. The petition should be granted at least to
use the power of this Court’s supervisory
administrative authority to suggest to the Federal
Circuit that excessive use of Rule 36 in this area of the
law is unacceptable.
A. The District Court Reached an Incorrect
Conclusion by Finding this Case Similar to
Parker v. Flook
In their Brief in Opposition, Respondents base their
argument on the incorrect, and overreaching,

3
statement that the district court found Petitioner’s
claims “indistinguishable from claims held patent
ineligible in Parker v. Flook, 437 U.S. 584 (1978).” In
fact, the district court stated only that “The claims at
issue in this case are unlike those addressed in Diehr
and more analogous to those considered in Flook” (App.
19) and, in contrast to the eligible claims in Mayo v.
Prometheus, the claims were “more like those in Parker
v. Flook, 437 U.S. 584 (1978).” (App. 42).
These vague statements reflect neither the
unequivocal nature of “indistinguishable” nor any
analytical justification. Thus, contrary to Respondents’
assertions, the district court, which did no fact-finding
relevant to a determination of step 2 of Alice Corp. Pty.
Ltd. v. CLS Bank Int’l, 573 U.S. 208, 221-224 (2014),
hardly found Petitioner’s claims “indistinguishable”
from those of Flook.
Respondents incorrectly parrot the district court’s
disregard for the distinguishable elements in
Petitioner’s Claim, and the method claim in Flook, as
can be seen by comparing the Flook claim with that in
Petitioner’s patent:
Flook claim:
1. A method for updating the value of at least
one alarm limit on at least one process
variable involved in a process comprising the
ca tal y t i c chem i ca l conv e r s i o n o f
hydrocarbons wherein said alarm limit has a
current value of Bo+K wherein Bo is the
current alarm base and K is a predetermined
alarm offset which comprises:

4
(1)

Determining the present value of said
process variable, said present value
being defined as PVL;

(2)

Determining a new alarm base B1,
using the following equation:
B1=Bo(1.0-F) + PVL(F)
where F is a predetermined number
greater than zero and less than 1.0;

(3)

Determining an updated alarm limit
which is defined as B1+K; and
thereafter

(4)

Adjusting said alarm limit to said
updated alarm limit value.

Flook, 437 U.S. at 596-598.
The Flook Court described some of the operations
required to practice this method as follows:
In order to use Respondents’ method for
computing a new limit, the operator must make
four decisions... he first selects the original
“alarm base” (Bo); if a temperature of 400
degrees is normal, that may be the alarm base.
He next decides on an appropriate margin of
safety… Then he decides on the time interval
that will elapse between each updating…
Finally, he selects a weighting factor (F), which
may be any number between 99% and 1%, and
which is used in the updating calculation.

5
Flook, 437 U.S. at 597. Thus, virtually all the process
in Flook is dependent upon the application of human
(“the operator”) thought and experience, to specify the
coefficients in a claimed formula. Indeed, the Flook
Court found that “[t]he only novel feature of the
method is a mathematical formula,” and found the
invention ineligible because, as “[i]n Gottschalk v.
Benson, 409 U. S. 63, we held that the discovery of a
novel and useful mathematical formula may not be
patented.” Flook, 437 U.S. at 585.
Petitioner’s Claim 1 of the ‘608 patent is quite
different than that of Flook, specifying nothing as
simple as a formula to be solved, and calling for
specialized apparatus. The claim recites a specific
scalable hardware architecture executing certain
processes that are not prima facie generic:
1. A system for filtering and interpreting realtime sensory data from an electrical system,
comprising:
a
data
acquisition
component
communicatively connected to a sensor
configured to acquire real-time data
output from the electrical system;
a power analytics server communicatively
connected to the data acquisition
components, comprising,
a virtual system modeling engine
configured to generate predicted data
output for the electrical system
utilizing a virtual system model of the
electrical system,

6
an analytics engine configured to
monitor the real-time data output and
the predicted data output of the
electrical system, the analytics engine
further configured to initiate a
calibration and synchronization
operation to update the virtual system
model when a difference between the
real-time data output and the
predicted data output exceeds a
threshold, and
a decision engine configured to
compare the real-time data output
against the predicted data output to
filter out and interpret indicia of
electrical system health and
performance;
and a client terminal communicatively
connected to the power analytics server
and configured to display the filtered and
interpreted indicia.
In addition to the other distinguishing elements, the
claim in Flook differs from Petitioner’s because Flook’s
was a method claim, while Petitioner’s is a system
claim. This distinction is important to the eligibility
analysis if the hardware in the system claim is not
“purely functional and generic”, which it is not in this
case. See Alice Corp. Pty. Ltd. v. CLS Bank Int’l, 573
U.S. 208, 226 (2014). In Alice, the specific hardware, a
“communications controller” and “data storage unit”
which could perform the basic calculation, storage, and
transmission functions required by the method claims,

7
were too generic to rescue the system claims from the
ineligibility of the method claims. In contrast,
Petitioner’s system claim calls for devices that are not,
as described in the claim, generic, and which perform
functions unique to the invention, viz., a:
“virtual system modeling engine configured to
generate predicted data output for the electrical
system utilizing a virtual system model of the
electrical system, an analytics engine configured
to monitor the real-time data output and the
predicted data output of the electrical system,
the analytics engine further configured to
initiate a calibration and synchronization
operation to update the virtual system model
when a difference between the real-time data
output and the predicted data output exceeds a
threshold.”
Finally, unlike the claim in Flook, Petitioner’s claim
describes neither an abstract mathematical formula
nor activity occurring after solution of the formula. In
Flook, this Court found the formula itself to be an
ineligible mathematical abstraction, and further
rejected “the notion that post-solution activity, no
matter how conventional or obvious in itself, can
transform an unpatentable principle into a patentable
process.” Flook, 437 U.S. at 591. Petitioner’s claim, in
contrast, describes a complex predictive activity and a
scalable hardware architecture on which it runs – not
a mathematical formula. Further, the claimed
computational activity recited by Petitioner’s claim is
not “post-solution” activity, but rather is activity
performed to produce the prediction (solution) itself.

8
B. The Question of Whether the Components
of Petitioner’s Claim are “Conventional
and Generic” is One of Fact Under
Berkheimer, so Disposition of this Case
Depends on How this Court Decides
Berkheimer
Whether the elements in a claim are routine and
conventional is a question of fact under Berkheimer v.
HP Inc., 881 F.3d 1360, 1368 (Fed. Cir. 2018). Further,
this fact “must be proven by clear and convincing
evidence.” Id., citing Microsoft Corp. v. i4i Ltd. P’ship,
564 U.S. 91, 95 (2011); see also Mortg. Grader, Inc. v.
First Choice Loan Servs. Inc., 811 F.3d 1314, 1325 (Fed.
Cir. 2016); Mayo Collaborative Servs. v. Prometheus
Labs., Inc., 566 U.S. 66, 78-79 (2012). Thus, the
disposition of Petitioner’s case is essentially dependent
on whether this Court upholds Berkheimer in its
current term.
Berkheimer is important here because the district
court itself made the determination, as a question of
law, on the basis of its own reading of the patent and
with no expert evidence at all –much less “clear and
convincing” evidence– that the claimed components
were not “unconventional physical elements” (App. 42)
only because they “focus[ed] on the idea of comparing
live data to predicted data and updating a prediction
model.” (App. 42). A “focus on an idea” is too imprecise
a formulation to describe how some apparatus actually
performs a required function. Under Berkheimer and
its antecedents, the district court should not itself have
made the “conventional” determination in this case at
all.

9
If this Court upholds Berkheimer, the decision in
Petitioner’s case should be vacated and remanded to
the district court for re-consideration of the eligibility
issue. Therefore, contrary to Respondents’ assertions,
Petitioner’s case is vitally dependent upon this Court’s
resolution of Berkheimer, which, if upheld, would
necessitate a summary remand of this case to the
district court.
C. Petitioner Waived No Questions of Material
Fact before the District Court
Petitioner has not “waived any argument that any
additional facts now raised might advance its position,”
as Respondents assert (Opp. at 2). Raising additional
facts at this appeal stage would not avail in any case,
but Petitioner has not raised any new facts. Petitioner
raised critical factual issues at the district court and
addressed such issues on appeal to the Federal Circuit.
The district court erroneously rejected Petitioner’s
factual arguments and this error was summarily
upheld by the Federal Circuit.
Numerous relevant fact issues were raised at the
district court in the parties’ briefing. In its statement
of undisputed facts and conclusions of law in support of
its motion for partial summary judgment of invalidity,
Respondents brought factual issues to the court to
buttress their “primary position that the controlling
case law” and the patents themselves demonstrate that
the ‘additional elements’ in the asserted claims fail to
constitute an “inventive concept” under step 2 of Alice.
Power Analytics Corp. v. Operation Technology, Inc. et
al., 8:16-cv-01955-JAK-FFM (C.D. Cal. Feb. 28, 2017)
[Doc. No. 162 at 1]. Respondents’ evidence on this

10
issue was certain prior art but Respondents did not
address the issue of invention.
In response, Petitioner specifically identified factual
issues, including the patent’s recitation of “structures
in the form of hardware, software modules and
algorithms that are deployed to create a dynamic
virtual system model”. Power Analytics Corp. v.
Operation Technology, Inc. et al., 8:16-cv-01955-JAKFFM (C.D. Cal. Mar. 21, 2017) [Doc. No. 181 at 14];
similar assertions implicating factual assertions of
invention appear elsewhere in that brief at, e.g., pp. 15,
17, 22, and 23.
Petitioner also disputed material facts in its motion
for reconsideration of the district court’s initial partial
summary judgment decision, Power Analytics Corp. v.
Operation Technology, Inc. et al., 8:16-cv-01955-JAKFFM (C.D. Cal. Aug. 10, 2017) [Doc. No. 327 at 2]
(“This is a naked assertion regarding an issue of
material fact,” attacking Respondents’ description of
claims in a different case); p. 15 (“The Court’s Order
did not analyze the claims as a whole and instead
focused on discrete aspects of the claims at an
impermissibly high level of abstraction”); p. 19 (“The
Court’s Order does not reflect a search for an inventive
concept required by Alice.”).

11
D. The Federal Circuit’s Routine Rule 36
Affirmance of Cases That Involve Patent
Eligibility Questions Has Widened the Void
in This Area of the Law and Invites
Injustice as Exemplified in this Case
This case presents two intertwined problems that
this Court should address: a) the Federal Circuit’s
excessive use of Rule 36 affirmances—specifically in
the patent eligibility context; and, b) the increasingly
chaotic state of judicial interpretation of § 101 patent
eligibility. The Federal Circuit’s practice of affirming
without opinion exacerbates the chaos surrounding
§ 101 because litigants and industry participants do
not receive necessary guidance from decisions granted
without written opinions.
The recent Federal Circuit decision in American
Axle & Manufacturing v. Neapco Holdings, No. 20181763, 2019 U.S. App. LEXIS 29655 (Fed. Cir. Oct. 3,
2019) illustrates the increasing disarray in § 101
jurisprudence. The dissent in American Axle observed
that, “Section 101 simply should not be this sweeping
and this manipulatable.” Id. at *44. The dissent also
noted that, “The majority’s validity goulash is troubling
and inconsistent with the patent statute and
precedent.” Id. And that, “the [§ 101] hydra has grown
another head.” Id. at *43.
The confusing state of § 101 interpretation, coupled
with the Federal Circuit’s affirmance without
explanation has real world consequences. First,
industry participants received no guidance as to
whether entire areas of invention are ineligible or
whether the Federal Circuit affirmed on procedural

12
grounds.
Substantial investments in innovation
–especially in the power systems industry– are thus
thrown into doubt and financial risk grows with
uncertainty.
Second, by concealing the grounds for their decision,
the judges of the Federal Circuit allowed Respondents
to submit an exaggerated and disingenuous response in
this Court. Petitioner disputed relevant questions of
fact at the district court, but the Federal Circuit’s Rule
36 affirmance of the district court’s judgment, with no
written opinion, leaves it in the dark as to how, or
whether, these arguments were considered and
ultimately leads to more petitions for certiorari
regarding the fundamental question of our patent
system—what is patentable?
The impenetrability of the appeals court’s decision
provides another reason for the Court to grant this
petition: to help resolve any ambiguities in the appeals
court’s interpretation of its own decision in Berkheimer,
and in particular whether that court agreed with the
district court’s substantive views and application of
§ 101, or with the waiver arguments so confusingly
raised by Respondents.
The egregious nature of Rule 36 decisions involving
§ 101 jurisprudence, which was treated at length in the
Petition, has been, and still is, the justification for
numerous other petitions before this Court. In addition
to the many contradictions in decisions involving § 101,
decisions using Rule 36 leaves open the possibility that
in any given case there are multiple reasons for the
Federal Circuit to have reached a decision. Yet not
knowing which one, or multiple, reasons were

13
responsible for a facially inconsistent decision in a
§ 101 case leads to no furtherance of understanding of
§ 101 issues and to the unnecessary expenditure of
large resources in patent litigation. This petition
should be granted, at the least, as an instruction to the
Federal Circuit to help settle § 101 law by properly
explaining its decisions in this area.
CONCLUSION
The petition for a writ of certiorari should be
granted. Alternatively, the Court should consider
holding this petition pending its resolution of
Berkheimer, No. 18-415.
Respectfully submitted,
Robert F. Ruyak
Counsel of Record
Amadou K. Diaw
Jeffrey Frey
RuyakCherian LLP
1700 K Street NW
Suite 810
Washington, DC 20006
(202) 838-1560
robertr@ruyakcherian.com
Korula T. Cherian
1936 University Avenue
Suite 350
Berkeley, CA 94704
(510) 944-0190
Counsel for Petitioner

